                     

 

 

                                 

 
                                    The Smithsonian Should
                                    Streamline and
 
                                    Standardize Its
 

 
                                    Architect/Engineer
                                    Contract Modification
                                    Process    . 




                                    Office of the Inspector General

                                    Audit of Management of the NMAAHC
                                     Building Project, A-12-03-1
                                    Audit Report
                                    May 11, 2012
         Office of the Inspector General


In Brief                              The Smithsonian Should Streamline and Standardize Its
                                      Architect/Engineer Contract Modification Process
                                      Report Number A-12-03-1, May 11, 2012
                                                                                                                           

Why We Did This Audit                 What We Found

We conducted the first in a series    The Smithsonian should streamline and standardize its A/E contract modification
of audits of the Smithsonian’s        process. First, we found that the Contracting Officer’s Technical Representative
management of the National            (COTR), following her office policy, developed independent government
Museum of African American            estimates (IGE) for more additional services than federal regulations require. As a
History and Culture (NMAAHC)          result, the COTR is doing more work than necessary, taking time away from
building project.                     completing her other project responsibilities, and thus potentially delaying the
                                      modification process and project schedule.
This is the first of two reports
covering the contract                 Second, based on available documentation, we also found that the COTR
modification process for the          appeared to have generally completed the IGEs late. As a result, the project team
NMAAHC project. We focused            did not know whether the COTR prepared the IGE independently and used it to
on the Smithsonian’s contracting      determine whether the A/E contractor’s fee was fair and reasonable — the
process because previous OIG          intended purpose of the IGE.
audits revealed weaknesses in this
area and because management           Third, we found that the Office of Facilities Engineering and Operations (OFEO)
expressed concern about the           did not submit modification packages to the Office of Contracting and Personal
efficiency of this process. Our       Property Management (OCon&PPM) timely, which delayed the Contract
overall audit objectives were to      Specialist in OCon&PPM from issuing the modifications. Without a modification
assess the efficiency and             in place, the A/E contractor cannot bill, and the Smithsonian cannot pay, for
effectiveness of the Smithsonian’s:   work the A/E contractor started under a notice to proceed. Furthermore, there is
1) contract modification process      a potential risk that the subcontractors may not be paid, jeopardizing a
for the architect/engineer (A/E)      subcontractor’s ability to continue as a going concern. Having to replace a
and construction management           subcontractor may negatively impact the project schedule.
(CM) at-risk contracts; and 2)
oversight process for awarding        The problems related to the IGEs and the modification package delays were
construction packages under the       primarily caused by a lack of written policies and procedures within OCon&PPM
CM at-risk contract. This report      and OFEO addressing the A/E contract modification process.
covered the process related to the
A/E contract only.                    During the course of the audit, we also observed that the project team members
                                      improved communications by having the COTR timely notify other OFEO team
What We Recommended                   members of upcoming additional services. However, expanding the COTR’s
                                      notification to include OCon&PPM would further strengthen communications.
To improve the efficiency and
effectiveness of the A/E contract     In addition, we identified four instances of the A/E contractor performing
modification process, we              unauthorized work for additional services. In all cases, the Smithsonian has since
recommended that OCon&PPM             remedied these instances by authorizing the work.
and OFEO develop and
implement relevant policies and
procedures.

Management concurred with our
findings and recommendations
and has planned corrective
                                      For additional information or a copy of the full report, contact the Office of the
actions to resolve the
                                      Inspector General at (202) 633-7050 or visit http://www.si.edu/oig.
recommendations.
SMITHSONIAN INSTITUTION                                                      OFFICE OF THE INSPECTOR GENERAL




 INTRODUCTION

 The Office of the Inspector General (OIG) conducted the first in a series of audits of the
 Smithsonian’s management of the National Museum of African American History and Culture
 (NMAAHC) building project. Through these audits, we intend to examine whether the
 Smithsonian has adequate processes to keep the NMAAHC project on schedule and within
 budget.

 In this audit, we focused on the Smithsonian’s contracting process because previous OIG audits
 revealed weaknesses in this area and because management expressed concern about the efficiency
 of this process. Our objectives were to assess the efficiency and effectiveness of the Smithsonian’s:
 1) contract modification process for the architect/engineer (A/E) contract to design the building
                                                             1
 and the construction management (CM) at-risk contract; and 2) oversight process for awarding
 construction packages under the CM at-risk contract.

 At the time we began our fieldwork, the Smithsonian had not yet awarded any construction
 packages under the CM at-risk contract. Therefore, to supply timely and relevant information,
 this report addresses the contract modification process related to the A/E contract only. We
 expect to issue a second report focusing on the CM at-risk contract later this fiscal year.

 We focused solely on A/E contract modifications for additional services.2 Additional services are
 services not included within the original statement of work but are within the scope of the
 contract. Examples include preparing the NMAAHC site for a walk through by oversight agencies
 and performing required groundwater tests. We identified 6 modifications composed of 28
 additional service items. We include a detailed description of our scope and methodology in
 Appendix A.

 RESULTS IN BRIEF
 The Smithsonian should improve the efficiency and effectiveness of its A/E contract modification
 process. First, we found that the Contracting Officer’s Technical Representative (COTR),
 following her office policy, developed independent government estimates (IGE) for more
 additional services than federal regulations require. As a result, the COTR is doing more work
 than necessary, taking time away from completing her other project responsibilities, and thus
 potentially delaying the modification process and project schedule.

 Second, based on available documentation, we also found that the COTR appeared to have
 generally completed the IGEs late. As a result, the project team did not know whether the COTR
 prepared the IGE independently and used it to determine whether the A/E contractor’s fee was
 fair and reasonable — the intended purpose of the IGE.




 1
   In a CM at-risk contract, the construction contractor is usually selected early in the design process and collaborates
 with the owner and designer during all phases of the project.
 2
   The Smithsonian also modified the contract for other reasons such as to exercise priced options and to make
 administrative changes to the contract. We did not include these modifications because they did not follow all steps
 in the Smithsonian’s A/E contract modification process.



                                                            1

SMITHSONIAN INSTITUTION                                                   OFFICE OF THE INSPECTOR GENERAL



 Third, we found that the Office of Facilities Engineering and Operations (OFEO) did not submit
 modification packages to the Office of Contracting and Personal Property Management
 (OCon&PPM) timely, which delayed the Contract Specialist in OCon&PPM from issuing the
 modifications. Without a modification in place, the A/E contractor cannot bill, and the
 Smithsonian cannot pay, for work the A/E contractor started under a notice to proceed (NTP). 3
 Furthermore, there is a potential risk that the subcontractors may not be paid, jeopardizing a
 subcontractor’s ability to continue as a going concern. Having to replace a subcontractor may
 negatively impact the project schedule.

 The problems related to the IGEs and the modification package delays were primarily caused by a
 lack of written policies and procedures within OCon&PPM and OFEO addressing the A/E
 contract modification process. OCon&PPM and OFEO concurred with our three
 recommendations and agreed to develop and implement relevant policies and procedures. In the
 meantime, OCon&PPM and OFEO have implemented an interim policy. Please refer to
 Appendix B for management’s full response.

 During the course of the audit, we observed that the project team members improved
 communications by having the COTR timely notify other OFEO team members of upcoming
 additional services. However, expanding the COTR’s notification to include OCon&PPM would
 further strengthen communications.

 In addition, we identified four instances of the A/E contractor performing unauthorized work for
 additional services. Unauthorized work creates a risk that the A/E contractor may perform
 services that do not meet the Smithsonian’s requirements. In all cases, the Smithsonian has since
 remedied these instances by authorizing the work.

 BACKGROUND
 The NMAAHC Project

 In 2003, Congress established NMAAHC, the Smithsonian’s newest museum, dedicated to the
 collection, preservation, research, and exhibition of African American historical and cultural
 material. The $500 million funding for this project will be split evenly between federal
 appropriations and private donations. The Smithsonian expects to open the museum to the
 public in the fall of 2015.

 Roles and Responsibilities

 Two Smithsonian units are primarily involved in the A/E contract modification process:
 OCon&PPM and OFEO.

 OCon&PPM

 OCon&PPM is responsible for awarding and administering contracts for all major Smithsonian
 facilities contracts. The Director of OCon&PPM assigns a contract specialist to each project.


 3
   An NTP is a notice to the A/E authorizing them to proceed immediately with urgent additional services up to a
 defined amount.



                                                          2

SMITHSONIAN INSTITUTION		                                                   OFFICE OF THE INSPECTOR GENERAL



 The Contract Specialist handles the day-to-day contracting responsibilities, including issuing
 contract modifications and NTPs.

 OFEO

 OFEO manages all of the Smithsonian’s facility-related programs. The following individuals
 within OFEO are the key players in the A/E contract modification process:
    		 Project Executive — The Project Executive monitors, directs, and reports on the scope,
        budget, and schedule of the overall project. He is also responsible for ensuring there is
        adequate funding for the additional services.
    		 COTR — The COTR for the A/E contract is a Design Manager within the Office of
        Engineering Design and Construction (OEDC) and receives a delegation of authority
        from OCon&PPM. The COTR is responsible for providing technical direction and
        guidance to the A/E contractor related to the contract scope of services, as well as
        developing the scope of work and IGEs for additional services, among other duties. The
        COTR then gathers documents for the modification package for OFEO approvals.
    		 Associate Director for Design — The Associate Director for Design, who oversees all
        Design Managers within OEDC, reviews A/E contract modification packages before
        OFEO submits them to OCon&PPM.

 The core project team consists of the Contract Specialist, COTR, and Project Executive.

 NMAAHC A/E Contract Modification Process

 The Smithsonian’s A/E contract modification process consists of the following nine steps,
 beginning when the Smithsonian recognizes a need for an additional service and ending when
 OCon&PPM signs the contract modification (see Figure 1):

      1.		 Smithsonian recognizes need for additional service. Various groups — NMAAHC,
           OFEO, and numerous oversight and regulatory agencies4 — may identify the need for
           additional services, such as required groundwater tests.
      2.		 COTR issues a request for proposal (RFP). The COTR defines the scope of the additional
           service and sends it in the form of an RFP to the A/E contractor.
      3.		 COTR develops IGE. Once the COTR issues the initial RFP, she begins developing an
           IGE — a detailed estimate of the cost of the additional service. The purpose of the IGE is
           to help the COTR and the Contract Specialist independently determine whether the A/E
           contractor’s fee proposal is fair and reasonable and whether the A/E contractor
           understands the Smithsonian’s requirements.
      4.		 A/E contractor submits fee proposal. The A/E contractor responds to the RFP with a
           proposed fee for performing the additional service.
      5.		 COTR and A/E contractor conduct negotiations. The COTR conducts negotiations with
           the A/E contractor concerning the modification as necessary. Based on these
           negotiations, the COTR may adjust the scope and issue an updated RFP, and the A/E
           contractor may revise its fee proposal.
      6.		 OFEO prepares and reviews complete modification package. The COTR gathers 

           documents for the modification package: a memo to OCon&PPM requesting a 

 4
   The National Capital Planning Commission, the Commission of Fine Arts, the National Park Service, and the
 Advisory Council on Historic Preservation are just a few of the agencies that oversee the design of the building.



                                                            3

SMITHSONIAN INSTITUTION		                                         OFFICE OF THE INSPECTOR GENERAL



          modification, a description of the scope of the additional service, the A/E contractor’s
          final fee proposal, the IGE, and a record of the COTR’s discussions with the A/E. The
          COTR submits these documents to both the Associate Director for Design and the
          Project Executive for their review. The Project Executive then issues the requisition,
          which establishes that funding for the additional service is available.
     7.		 OFEO analyst sends complete modification package to OCon&PPM. Once the
          modification package has received the necessary OFEO approvals, an analyst attaches the
          requisition to the modification package and sends the completed package to
          OCon&PPM.
     8.		 OCon&PPM issues modification. The Contract Specialist in OCon&PPM reviews the
          package and then prepares and issues a contract modification to the A/E contractor for
          their review and signature.
     9.		 A/E contractor and OCon&PPM sign modification. The A/E contractor reviews, signs,
          and returns the contract modification to OCon&PPM. OCon&PPM then signs the
          contract modification.

 Figure 1. Smithsonian's A/E Contract Modification Process


       1. SI recognizes                                       3. COTR develops
      need for additional          2. COTR issues RFP               IGE
            service




      6. OFEO prepares
         and reviews                5. COTR and A/E           4. A/E contractor
          complete                 contractor conduct            submits fee
         modification                  negotiations               proposal
           package




       7. OFEO analyst                                        9. A/E contractor
       sends complete                8. OCon&PPM              and OCon&PPM
         modification              issues modification        sign modification
          package to
         OCon&PPM


 NTP Process

 In December 2010, the project team members met to devise a process for issuing NTPs, which
 would allow the A/E contractor to begin work immediately for urgent additional services while
 OFEO and OCon&PPM prepared the necessary documentation for the modification. The team
 agreed that OCon&PPM would give an NTP to the A/E contractor only after OFEO provided
 OCon&PPM with three documents: scope of the additional service, A/E contractor’s fee
 proposal, and requisition. In the fall of 2011, OFEO changed the NTP process. Now,
 OCon&PPM needs only the scope of the additional service and its approximate cost to issue the
 NTP.




                                                         4

SMITHSONIAN INSTITUTION                                        OFFICE OF THE INSPECTOR GENERAL



 In addition, the project team agreed that OFEO would send a complete modification package to
 OCon&PPM within 30 days of issuing the NTP, and OCon&PPM would issue the modification
 within 30 days of receiving the complete package.

 Smithsonian Policies and Procedures

 OCon&PPM and OFEO each have their own policies and procedures that address A/E contracts:
    OCon&PPM policies and procedures — The Procurement and Contracting Procedures
      Manual (PCPM) sets forth OCon&PPM’s policies, procedures, and guidance for
      individuals involved in contracting activities, including A/E contracts. However, this
      manual does not address the IGE requirements for A/E contract modifications. Further,
      while the PCPM sets the Smithsonian’s simplified acquisition threshold at $100,000, the
      threshold does not apply to the IGE requirement.
    OFEO policies and procedures — The Facilities Project Management Handbook serves as
      OFEO’s guide for managing facility projects, including the design process. This handbook
      does not include guidance surrounding the A/E contract modification process. However,
      the Design Management Guide, which is specifically for OFEO’s Design Division does
      include guidance for A/E contract modifications. According to this guide, an IGE must be
      included in each A/E contract modification package.

 Federal Acquisition Regulation

 The Smithsonian uses the Federal Acquisition Regulation (FAR) as a guide, but is not required to
 follow it. However, we believe the Smithsonian should follow the FAR as a best practice.

 The relevant FAR provision, FAR 36.605(a), states:

        An independent Government estimate of the cost of architect-engineer services shall be
        prepared and furnished to the contracting officer before commencing negotiations for
        each proposed contract or contract modification expected to exceed the simplified
        acquisition threshold.

 This FAR provision is in contrast to OFEO’s Design Management Guide, which requires an IGE
 for all contract modifications, including those below the simplified acquisition threshold.

 RESULTS OF AUDIT
 OFEO Developed IGEs for More Items than Necessary

 As described above, the FAR requires an IGE only for contract modifications expected to be
 greater than the simplified acquisition threshold. According to the PCPM, the Smithsonian’s
 simplified acquisition threshold is $100,000. Yet, following the requirements set forth in OFEO’s
 Design Management Guide, which states the COTR should establish an IGE regardless of the
 dollar amount of the modification, the COTR developed IGEs for most items. This guidance
 caused the COTR to develop an IGE for 27 of the 28 items in our sample, some of which were
 well below the simplified acquisition threshold.




                                                 5

SMITHSONIAN INSTITUTION                                             OFFICE OF THE INSPECTOR GENERAL



 The number of IGEs the COTR should have prepared will differ depending on whether the
 Smithsonian applies the FAR requirement for developing IGEs at the individual item level or the
 modification level. Neither OCon&PPM nor OFEO has a policy addressing this issue.

 Individual Item Level

 OCon&PPM batches multiple items in each modification. For example, the first A/E contract
 modification included five additional service items. Therefore, if the Smithsonian applies the FAR
 at the individual item level, an IGE would have been required for 5 out of 28 items in our sample
 that are greater than $100,000. See Table 1.

                           Table 1 – Number of IGEs Required if FAR Applies at
                                            Individual Item Level
                           Item amounts                    Number of items
                         $100,000 or greater                       5
                          $50,000 - $99,999                        5
                          $10,000 - $49,999                        8
                          Less than $10,000                       10

 Modification Level

 If the FAR applies at the modification level, an IGE would have been required for the 19 items in
 our sample that were contained in the 4 modifications that each totaled more than $100,000. See
 Table 2.

                              Table 2 – Number of IGEs Required if FAR
                                     Applies at Modification Level
               Modification        Is the modification total   If so, how many items are in
                Number              greater than $100,000?            the modification?
                    1                        Yes                           5
                    3                        No                             -
                    4                        No                             -
                    7                        Yes                           3
                    9                        Yes                           9
                   10                        Yes                           2
                  Total                       -                            19

 The COTR developed IGEs for more items than the FAR requires because OFEO’s Design
 Management Guide required her to do so and the Contract Specialist in OCon&PPM did not tell
 her otherwise. The Contract Specialist did not inform the COTR because OCon&PPM did not
 have a written policy addressing IGE requirements for A/E contract modifications. Lacking such
 a policy, members of OCon&PPM and OFEO mistakenly believed IGEs were required for every
 additional service.

 By completing an IGE for nearly all items in our sample, the COTR is doing more work than is
 necessary, taking time away from completing other project responsibilities. As a result, this may
 hold up the modification process, which could lead to project schedule delays.

 After we completed our fieldwork, OFEO, in coordination with OCon&PPM, revised the OFEO
 Design policy such that an IGE is no longer required for A/E contract modifications below the


                                                       6

SMITHSONIAN INSTITUTION		                                                     OFFICE OF THE INSPECTOR GENERAL



 $100,000 threshold. Consistent with the FAR, OFEO design managers still must determine
 whether the A/E contractor’s fee is fair and reasonable through other means.

 OFEO Appeared to Have Completed IGEs Late

 As stated in the background section, the FAR requires that the IGE be prepared before
 commencing negotiations with the A/E contractor. While contract specialists in OCon&PPM
 have differing views on when negotiations begin, they do agree that the COTR should complete
 the IGE at least before the COTR receives the A/E contractor’s first proposal. Neither
 OCon&PPM nor OFEO have a policy stating this requirement.

 Based on OFEO documentation we obtained, the COTR appeared to have generally completed
 the IGE after receiving the A/E contractor’s proposal, hindering the COTR’s ability to use the IGE
 for its intended purpose of determining whether the A/E contractor’s fee is fair and reasonable.
 For 26 of the 27 items5 (or 96 percent), the COTR appeared to have completed the IGE after
 receiving the A/E contractor’s first proposal; for 21 items (or 78 percent), she appeared to have
 completed the IGE after receiving the final proposal. 6

 The COTR told us that she did in fact complete the IGE before receiving the A/E contractor’s first
 proposal for most of the items, but she did not have any documentation supporting this
 statement. She explained that she signed the IGE on the date she assembled the modification
 package rather than the date she completed the IGE. As a result, the project team, as well as the
 OIG, did not know whether she prepared the IGE independently and used it to determine
 whether the A/E contractor’s fee was fair and reasonable.

 In addition, although OCon&PPM and OFEO agree that the IGE should be completed at least
 before the COTR receives the A/E contractor’s proposal, neither has written policies stating this
 requirement.

 Recommendations

 To improve the efficiency and effectiveness of the A/E contract modification process, we
 recommend that the Director of OCon&PPM:

        1.		 Develop and implement a written policy that sets requirements for developing IGEs for
             A/E contract modifications, which includes (1) clarifying whether an IGE is required at
             the item or the modification level, (2) establishing an IGE threshold, and (3) requiring the
             COTR to document when she completes the IGE.

 We also recommend that the Director of OFEO:

        2.		 Align OFEO policy with OCon&PPM’s policy in Recommendation 1.




 5
     The COTR did not develop an IGE for one item totaling approximately $9,000.
 6
     For some items, the A/E contractor’s first proposal was also the final proposal.



                                                              7

SMITHSONIAN INSTITUTION                                                                           OFFICE OF THE INSPECTOR GENERAL



 OFEO Did Not Submit Modification Packages to OCon&PPM Timely

 OFEO did not submit modification packages to OCon&PPM timely, which delayed OCon&PPM
 from issuing the modifications. Without a modification in place, the A/E contractor cannot bill,
 and the Smithsonian cannot pay, for work the A/E contractor started under an NTP.
 Furthermore, there is a potential risk that the subcontractors may not be paid, jeopardizing a
 subcontractor’s ability to continue as a going concern. Having to replace a subcontractor may
 negatively impact the project schedule.

 In December 2010, as part of the NTP process, the project team agreed that OFEO would submit
 the complete modification package to OCon&PPM within 30 days of issuing an NTP. Yet, for 13
 of the 21 items (or 62 percent) with an NTP and sufficient documentation,7 OFEO submitted
 modification packages to OCon&PPM more than 30 days after the NTP date. See Figure 2.

                                                              Figure 2. Number of Days Between When NTP
                                                               Issued and Modification Package Submitted
                             # of A/E modification packages




                                                                 8                           These 13 should
                                                                                             be within 30 days


                                                                               5                         5

                                                                                            3




                                                              30 or less      31-60        61-90     more than 90
                                                                 # of days after NTP issuance that OFEO sent
                                                                     modification package to OCon&PPM

 OFEO submitted modification packages to OCon&PPM late because the project team did not
 adequately communicate their NTP procedures to all those involved in the A/E contract
 modification process. Following OFEO’s standard process, the OFEO analyst normally would
 send a complete modification package to OCon&PPM for each additional service. Under the
 NTP process, however, the Project Executive or COTR sent the Contract Specialist the three
 documents needed to issue an NTP — scope of the additional service, A/E contractor fee
 proposal, and requisition — before completing the modification package. Because the project
 team did not understand OFEO’s process for sending modification packages to the Contract
 Specialist, none of the team members told the OFEO analysts that they still needed to send the
 Contract Specialist the remaining documents to complete the package.

 Furthermore, the OFEO analyst did not think a complete package was necessary because the
 Contract Specialist had previously issued modifications without one. The project team and
 OFEO analysts have since clarified their process and now follow OFEO’s standard procedures for
 sending packages to the Contract Specialist.
 7
  The project team members could not determine the date OFEO sent the complete modification package to
 OCon&PPM for 2 of the 23 items with an NTP.



                                                                                   8

SMITHSONIAN INSTITUTION		                                                                       OFFICE OF THE INSPECTOR GENERAL



 In addition, OFEO may not have submitted the packages timely because the A/E contractor had
 already started work under an NTP, reducing OFEO’s urgency to send the modification package.

 By not submitting modification packages to the Contract Specialist timely, OFEO delayed
 OCon&PPM from issuing the modifications and the A/E contractor from billing for work it
 started under an NTP. For 7 of the 23 items with an NTP (or 30 percent), the Contract Specialist
 did not issue the modification until more than 60 days8 after the NTP was issued. See Figure 3.

                                                   Figure 3. Number of Days Between When NTP Issued
                                                                and Modification Issued
                                                                            9
                               # of A/E modification packages

                                                                                            Should be 60
                                                                 7                          days or less

                                                                                                    5



                                                                                        2




                                                                1-30        31-60       61-90       > 90
                                                                 # days after NTP issuance that OCon&PPM
                                                                              issued modification

 The Contract Specialist generally followed the NTP procedures and issued modifications within
 30 days of receiving a complete package. In fact, for nine items, the Contract Specialist issued
 modifications before receiving a complete package from OFEO. Had the Contract Specialist
 waited for the complete package, 10 of the 23 items (or 43 percent) would have been issued more
 than 60 days after the NTP.

 Recommendation

 To ensure that all those involved in preparing A/E contract modification packages understand
 their responsibilities in this process, we recommend that the Director of OFEO:

     3.		 Develop and implement written procedures to ensure that OFEO submits A/E contract
          modification packages to OCon&PPM timely.

 ADDITIONAL OBSERVATION
 Project Team Communication Could Be Strengthened

 While the project team members improved communications by having the COTR timely notify
 other OFEO team members of upcoming additional services, the team could further strengthen
 communications by expanding the COTR’s notification to include OCon&PPM. Prior to January

 8
  OFEO has 30 days to submit the modification package to the Contract Specialist; the Contract Specialist then has 30
 days to issue the modification.



                                                                                 9

SMITHSONIAN INSTITUTION                                         OFFICE OF THE INSPECTOR GENERAL



 2012, the Associate Director for Design, Project Executive, and Contract Specialist were unaware
 of when the COTR sent an RFP to the A/E contractor, which made it difficult to perform their
 project duties effectively. For example, without up to date information on the status of additional
 services, the Project Executive may not be able to maintain a budget reflecting all upcoming
 additional services.

 The OFEO team members have since attempted to improve communication. Now, the COTR
 sends an email to the Associate Director for Design and Project Executive before sending the
 RFP, explaining the scope of work and rough estimate of the cost for the additional service.
 However, the Contract Specialist does not receive this email. According to the Contract
 Specialist, he does not need to receive this email, but he would find it helpful for the COTR to
 provide a list of current and future additional service items.

 We encourage the project team members to continue to improve communication, which may
 help the Smithsonian gain efficiencies in the contract modification process.

 A/E Contractor Proceeded With Unauthorized Work

 We found that the A/E contractor proceeded with $180,000 in unauthorized work for the
 expansion of the history gallery. This additional service was to provide design documents for
 37,000 square feet of additional history gallery space. While the COTR and the A/E contractor
 were negotiating the scope and fee, the A/E contractor proceeded with some work before
 receiving an NTP.

 Section G.3.3 of the A/E contract states that the Smithsonian will not pay the A/E contractor for
 any additional work or services they performed that have not been approved by the Contracting
 Officer in writing.

 In general, because of the aggressive project schedule, the A/E contractor told us they were willing
 to take on the risk that comes with commencing work before receiving authorization. In the case
 of the history gallery expansion, the Contract Specialist had not issued an NTP ahead of time
 because the A/E contractor started work for additional services without notifying her or OFEO.
 Moreover, OCon&PPM has repeatedly reminded the A/E contractor that it must first have
 authorization to proceed with work.

 In general, the A/E contractor beginning work without having negotiated a final scope and fee
 creates a risk that the A/E contractor may perform services that do not meet the Smithsonian’s
 requirements. Further, this situation creates a risk of the A/E contractor filing a claim for the
 services should the Smithsonian and the A/E contractor not agree on a final fee. In fact, the
 Smithsonian has already paid $250,000 to the A/E contractor to settle a claim for additional
 services.

 In addition to this example, the Smithsonian informed us of three other instances of the A/E
 contractor performing unauthorized work. In all four cases, the Smithsonian has since
 incorporated these additional services into contract modifications or NTPs. Further,
 OCon&PPM has repeatedly reminded the A/E contractor that they may not begin work for
 additional services without first receiving authorization. As such, we make no recommendations.




                                                 10 

SMITHSONIAN INSTITUTION                                        OFFICE OF THE INSPECTOR GENERAL




 APPENDIX A. SCOPE AND METHODOLOGY
 Our objectives were to assess the efficiency and effectiveness of the Smithsonian’s: 1) contract
 modification process for the A/E and CM at-risk contracts; and 2) oversight process for awarding
 construction packages under the CM at-risk contract.

 To supply timely and relevant information, this report addresses the contract modification
 process related to the A/E contract only.

 We obtained an understanding of the NMAAHC project by attending project executive and
 oversight meetings. We also reviewed Smithsonian Board of Regents meeting minutes,
 NMAAHC Council transcripts, and NMAAHC project A/E contractor progress meeting minutes.

 To obtain an understanding of the Smithsonian’s A/E contract modification process, we
 interviewed personnel from OCon&PPM, OFEO and NMAAHC, as well as the A/E contractor.

 We identified criteria by reviewing previous OIG audit reports related to building project
 management; relevant sections of the FAR; Smithsonian policies and procedures; and the A/E
 contract, its modifications, and other contract-related documents.

 To test the effectiveness and efficiency of the Smithsonian’s contract modification process, we
 identified A/E contract modifications made through January 31, 2012, for additional service
 items. There were 6 A/E contract modifications composed of 28 additional service items. For
 each additional service item, we obtained documentation for each step in the contract
 modification process and calculated the time between them. We also determined whether the
 additional service items were incorporated into the project budget.

 We did not review the Smithsonian’s entire internal control structure for managing contracts.
 We limited our review to those internal controls related to the contract modification process for
 the NMAAHC A/E contract as they pertained to our audit objective.

 We conducted this performance audit in Washington, D.C. from November 2011 through March
 2012, in accordance with generally accepted government auditing standards. Those standards
 require that we plan and perform the audit to obtain sufficient, appropriate evidence to provide a
 reasonable basis for our findings and conclusions based on our audit objectives. We believe that
 the evidence we obtained provides a reasonable basis for our findings and conclusions based on
 our audit objectives.




                                                 11 

SMITHSONIAN INSTITUTION              OFFICE OF THE INSPECTOR GENERAL


 APPENDIX B. MANAGEMENT’S RESPONSE




                             12 

SMITHSONIAN INSTITUTION               OFFICE OF THE INSPECTOR GENERAL


 APPENDIX B. MANAGEMENT’S RESPONSE (CONTINUED)




                             13 

SMITHSONIAN INSTITUTION               OFFICE OF THE INSPECTOR GENERAL


 APPENDIX B. MANAGEMENT’S RESPONSE (CONTINUED)




                             14 

SMITHSONIAN INSTITUTION                                      OFFICE OF THE INSPECTOR GENERAL




 APPENDIX C.
 The following individuals from the Smithsonian Office of the Inspector General contributed to
 this report:

 Joan T. Mockeridge, Acting Inspector General for Audits and Supervisory Auditor
 Katie B. Spillane, Senior Auditor
 Michelle S. Uejio, Senior Auditor




                                               15 

